                Office of Inspector General
              Export-Import Bank of the United States




SE M IAN N UAL RE POR T TO CO NGRE S S
APR I L 1, 2 011 TO SE P TE M B E R 3 0, 2 011
The Export-Import Bank of the United States
(Ex-Im Bank) is the official export credit agency of the United States. The mission of Ex-Im Bank
is to assist in financing the export of U.S. goods and services to international markets. Ex-Im Bank
enables U.S. companies — large and small — to turn export opportunities into sales that helps to
maintain and create U.S. jobs and contribute to a stronger national economy. In fiscal year 2011,
Ex-Im Bank authorized transactions totaling $32 billion. Ex-Im Bank is an independent executive
agency and a wholly owned U.S. government corporation that celebrated 75 years of service to the
nation in 2009. Information about Ex-Im Bank is available at www.exim.gov.


The Office of Inspector General
(OIG) was organized in 2007 as an independent office within Ex-Im Bank to support its mission
and goals by detecting and responding to fraud, waste, and abuse involving Ex-Im Bank programs
and personnel and to promote economy and efficiency in operations. The Inspector General Act
of 1978 charges the Inspector General with responsibility for conducting audits, inspections, and
investigations. The Inspector General keeps the Chairman of Ex-Im Bank and Congress fully and
currently informed about problems and deficiencies relating to the administration of Ex-Im Bank
programs and operations.


Online Availability
Reports of OIG audits, evaluations, and other activities are available at www.exim.gov/oig.
Information about the responsibilities of Inspectors General across the U.S. government can be
found at www.ignet.gov.


Additional Copies
For additional copies of this report or those from prior periods, write:

	       Office of Inspector General
	       Export-Import Bank of the United States
	       811 Vermont Ave. N.W.
	       Washington D.C. 20571
	       Or call: (202) 565-3908
                                           EXPORT-I MPORT BANK
 OSVALDO L. GRATACÓS                       of the UNITED STATES
 INSPECTOR GENERAL


                             MESSAGE FROM THE INSPECTOR GENERAL


The end of this semiannual reporting period constitutes the fourth anniversary of the Export-Import Bank
(Ex-Im Bank) Office of Inspector General (OIG). Although the OIG was statutorily created in 2002, an
Inspector General (IG) was not officially sworn in until August 2007. As Ex-Im Bank concludes another
fiscal year of record growth with over $32 billion in authorizations, the OIG has also seen record growth of
its own: from a staff of 1 in August 2007 to a staff of 13 and a financial impact of over $243 million.
During this reporting period alone, the efforts of our Office of Investigations resulted in six criminal
judgments, $93 million in criminal restitution and special assessments, and $14 million in cost savings and
repayments.

With Ex-Im Bank’s record growth, however, comes increased risks and challenges. Starting with this
Semiannual Report to Congress, we begin listing major management challenges facing Ex-Im Bank. On
May 24 and June 30, 2011, I had the privilege of testifying before Congress on Ex-Im Bank’s
reauthorization.1 I focused my remarks on these management challenges, two of which I’ll highlight here.

The first management challenge facing Ex-Im Bank is its overstretched human capital. Ex-Im Bank has
more than doubled its authorizations in four years, but has not been able to increase its staff to account for
such growth. Although productivity has increased, the OIG believes that such human capital limitations
may contribute to diminished oversight and due diligence over an expanding portfolio resulting in high
default rates down the road. While Ex-Im Bank is constrained by Congressional funding, it should
nevertheless review and adjust its staffing levels and in-house expertise to reflect the needs of record growth.

The second management challenge is Ex-Im Bank’s Information Technology (IT) infrastructure. The
current, decentralized IT infrastructure is not up to the task of providing timely service for Ex-Im Bank’s
internal and external customers as well as effectively managing, tracking, and assessing its programs,
products, and ever increasing portfolio. Significant asset growth over the past five years as well as changes in
the composition of its product portfolio make it imperative that Ex-Im Bank invest in a comprehensive,
end-to-end IT infrastructure. During this reporting period, we commenced an audit of Ex-Im Bank’s IT
infrastructure and we expect to issue the audit results and recommendations to management in November
2011 on this critical issue.



    1
        Testimony before the House Committee on Financial Services Subcommittee on International Monetary Policy and
        Trade is available at http://www.exim.gov/oig/documents/CongressionalTestimonyMay202011.pdf. Testimony
        before the Senate Committee on Banking, Housing, & Urban Affairs Subcommittee on Security & International
        Trade & Finance is available at http://www.exim.gov/oig/documents/Statement%20110630%20Web.pdf.


                    811 Vermont Avenue, N.W. Washington, D.C. 20571
Ex-Im Bank’s record growth also presents challenges to the OIG. Because we oversee a growing $80 billion
portfolio with limited resources, we are continually challenged to undertake critical audits, evaluations, and
inspections in a timely manner and increase our investigative resources to tackle complex, international
transactions. Nevertheless, our excellent staff and positive working relationships with Ex-Im Bank
management and other agencies, such as the General Accounting Office (GAO), the Department of Justice,
and the Department of Homeland Security Immigration and Customs Enforcement, have allowed us to
make significant progress. We are presently working with multilateral financial institutions to identify ways
to share information and resources in our fight to detect, prevent, and prosecute fraud. We continue to
explore ways of collaborating to accomplish our mission given our limited resources.

Ex-Im Bank’s record growth over the past three years reflects its crucial role in creating and maintaining jobs
in the U.S. by facilitating export financing. The OIG will continue to provide objective and independent
recommendations to Ex-Im Bank on ways to improve its programs and operations as well as detect, prevent,
and prosecute fraud. Our ultimate goal is to help Ex-Im Bank contribute to a stronger U.S. economy at the
least possible cost to the U.S. taxpayer.




Osvaldo L. Gratacós
                                                                                TABLE OF CONTENTS


HIGHLIGHTS OF THIS SEMIANNUAL REPORT ........................... 3
    OIG Management Initiatives ....................................................................................4
    Cooperation with Government Accountability Office ................................................5
    Personnel Update .....................................................................................................6
    Council of the Inspectors General on Integrity and Efficiency ...................................6
    Review of Legislation and Regulations .....................................................................7
    Ex-Im Bank Management Challenges .......................................................................9

OFFICE OF AUDITS .........................................................................17
    Summary of Audit Activity..................................................................................... 19
    Audits Issued ......................................................................................................... 19
    Ongoing Audits ..................................................................................................... 21
    Audit Follow-up .....................................................................................................23

OFFICE OF INSPECTIONS ............................................................. 25
    Summary of Inspection Activity .............................................................................27
    Inspections Issued ..................................................................................................27
    Ongoing Inspections and Evaluations ..................................................................... 29

OFFICE OF INVESTIGATIONS ...................................................... 31
    Summary of Investigative Activity .......................................................................... 33
    Summary of Investigations .....................................................................................34
    Summary of Investigative Results ........................................................................... 35
    Investigations .........................................................................................................36
    Other Investigative Results .....................................................................................44

APPENDICES ................................................................................... 47
    Appendix A — Peer Review Reporting .................................................................... 49
    Appendix B — IG Act Provisions Requiring Reporting in SAR ................................50




                                   Office of Inspector General                                                           Page 3
                     Export - Import Bank of the United States
                 HIGHLIGHTS OF THIS SEMIANNUAL REPORT


The Inspector General (IG) testified before House and Senate oversight committees on
Ex-Im Bank’s Charter reauthorization. The IG’s testimony focused on the OIG’s operations
and the challenges facing Ex-Im Bank as it experiences unprecedented growth.

The Of fice of Investigations capped the reporting period with several accomplishments
toward meeting mission objectives of investigating fraud impacting Ex-Im Bank, including:

       •	 six criminal judgments resulting in 245 months imprisonment, 216 months
            probation, and $92,985,790 in criminal restitution and special assessments
       •	 seventeen administrative actions stemming from referrals of active investigative
            information resulting in $14,308,923 in cost savings and repayments to Ex-Im
            Bank, two voluntary exclusions, 120 months of debarment and 36 months of
            suspension
       •	 six criminal informations and indictments against subjects of ongoing
            investigations
       •	 nine plea agreements entered in court by subjects pursuant to ongoing investigative
            matters
       •	 forty pieces of investigative information referred to Ex-Im Bank Office of General
            Counsel concerning potential fraud and funds at risk to support enhanced due
            diligence efforts in approving, processing, and monitoring export credit loan
            guarantees and insurance policies

The Of fice of Audits completed one audit during the reporting period on the Working
Capital Guarantee (WCG) Delegated Authority (DA) Program. Ex-Im Bank’s working capital
financing enables U.S. exporters to obtain loans that facilitate the export of goods or services.
These working capital loans, made by commercial lenders and backed by Ex-Im Bank’s
guarantee, provide exporters with the liquidity to accept new business, grow international
sales, and compete more effectively in the international marketplace. Because 80 percent of all
working capital guarantees are committed under DA, we reviewed the program as a high-risk
area of concern.




                                Office of Inspector General                               Page 5
                  Export - Import Bank of the United States
         The Working Capital Finance Division’s (WCFD) major priority is the effective management
         and monitoring of the use of the WCG DA Program. The audit found WCFD generally
         complied with its policies and procedures to perform an examination of WCG DA lenders
         and to notify lenders of exceptions identified during examination. We noted, however, that
         improvements are needed to strengthen follow-up procedures and controls and to maintain
         DA data.

         The Of fice of Inspections issued a review on Ex-Im Bank’s Nigerian Banking Facility
         (NBF). The consolidated facility expedites the processing of short, medium, and long-term
         Ex-Im Bank financing for the purchase of U.S. goods and services by Nigerian buyers. Due to
         corruption allegations against managers of two NBF participating banks, the OIG conducted
         a review to determine whether potential exposure to fraud existed, policies and procedures to
         establish credit facilities were in place and properly implemented, and requirements were in
         place to require participating banks to report any corruption investigations to Ex-Im Bank.

     The review found that transactions conducted by the two investigated banks and underwritten
     by Ex-Im Bank under the NBF did not demonstrate any indicia of fraud. However, we found
     that Ex-Im Bank lacked policies and procedures when it established the Special Delegation
     Authority (SDA). In addition, the NBF and participating banks were not required to provide
     certifications or representations to Ex-Im Bank of compliance with U.S. or Nigerian laws
     including anti-corruption certifications or statements. We made three suggestions to Ex-Im
     Bank management related to the development of policies and procedures to establish an SDA
     and credit facilities and the creation of an anti-corruption hotline.

     Finally, we reviewed proposed legislation to re-authorize Ex-Im Bank operations through 2015
     and began identifying major management challenges facing Ex-Im Bank.




     OIG Management Initiatives
     During this reporting period, the OIG made significant progress on various initiatives related
     to its investigations program. On June 10, 2011, the Attorney General granted the OIG
     authority to exercise law enforcement powers in accordance and compliance with the terms
     established by the Inspector General Act of 1978 (IG Act), as amended, and the Attorney
     General Guidelines for Offices of Inspector General with Statutory Law Enforcement
     Authority. Under section 6(e)(3) of the IG Act (as amended by the Homeland Security Act of
     2002), several Offices of Inspectors General were exempt from the requirement of an initial
     determination of eligibility for law enforcement powers by the Attorney General. As an IG for
     Ex-Im Bank had not been appointed at that time, the OIG was not exempt and required an
     initial determination of eligibility from the Attorney General. Previous to the granting of this




Page 6                        Semiannual Report to Congress
                              April 1, 2011 through September 30, 2011
authority, the OIG derived its law enforcement authority from a Special Deputation from the
U.S. Marshals Service.

In addition, since the majority of OIG investigations are focused on international transactions,
the OIG is seeking to partner with international finance organizations to exchange ideas
and information on how to effectively work together in preventing and investigating fraud.
During this reporting period, the IG met with senior management of the following entities:

       •	 the World Bank Integrity Vice Presidency responsible for investigating allegations
             of fraud, collusion, and corruption in World Bank projects;
       •	 the World Bank Inspection Panel, which provides a forum for people who believe
             they may be adversely affected by Bank-financed operations and determines
             whether the Bank is complying with its own policies and procedures;
       •	 the International Monetary Fund Independent Evaluation Office, which conducts
             independent and objective evaluations of Fund policies and activities; and
       •	 the Inter-American Development Bank (IDB) Office of Institutional Integrity
             responsible for investigating allegations of, and taking efforts to prevent, fraud and
             corruption in IDB Group-financed activities.
The OIG will continue to work with these entities to find ways to collaborate in identifying
and preventing fraud in Ex-Im Bank transactions.




                                     Collaboration with Government
                                              Accountabilit y Of fice
As part of the OIG’s ongoing collaboration with the Government Accountability Office
(GAO), senior management of both agencies met with Ex-Im Bank management to discuss
recommended improvements to economic impact procedures. In September 2007, GAO
issued a report, Export-Import Bank: Improvements Needed in Assessment of Economic Impact
(GAO-17-1071) and in September 2010, the OIG issued a report, Evaluation Report Relating
to Economic Impact Procedures (OIG‑EV‑10‑03).1 Both reports identified ways in which
economic impact procedures can be revised to increase transparency, make the process more



  1	 The GAO report, Export-Import Bank: Improvements Needed in Assessment of Economic Impact (GAO-07-1071)
     was published on September 12, 2007 and is available at http://www.gao.gov/new.items/d071071.pdf. The OIG
     report, Evaluation Report Relating to Economic Impact Procedures (OIG-EV-10-03) was published on September 17,
     2010 and is available at http://www.exim.gov/OIG/documents/EIB_Report_Final_Complete_Web.pdf.




                                  Office of Inspector General                                             Page 7
                    Export - Import Bank of the United States
         manageable, and address the accuracy of the methodology. The GAO report also explicitly
         addressed steps to better implement the intent of Congress.

         Ex-Im Bank indicated that they have established a time frame for the review of its economic
         impact procedures and they expect to complete the review by the end of 2011. The review
         will include an assessment of Ex-Im Bank’s experience since 2001, when the last wholesale
         review was conducted. The Ex-Im Bank review began in July 2011.




         Personnel Update
         Alberto Rivera-Fournier joined Ex-Im Bank OIG in July 2011 as Counsel to the IG. In
         this capacity, he is responsible for providing administrative, management, and professional
         legal counsel and advice to the IG, senior managers, and staff on a wide range of complex
         legal, administrative, audit, and investigative issues. Before his appointment at Ex-Im Bank
         OIG, he was Counsel to the IG at the Government Printing Office. He has also served as
         an attorney with the Federal Trade Commission, the U.S. Office of Special Counsel, and the
         Puerto Rico Federal Affairs Administration. Mr. Rivera-Fournier is a graduate of The George
         Washington University Law School and Wesleyan University.



         Council of the Inspectors General
         on Integrit y and Ef ficiency
         The OIG is participating in the Professional Development Committee of the Council of
         Inspectors General on Integrity and Efficiency (CIGIE). The Professional Development
         Committee provides educational opportunities for members of the IG community, supports
         the development of competent personnel, provides opportunities to improve training methods
         and the development of OIG staff, and establishes training to meet continuing education
         requirements.

         In addition, Senior Inspector Mark Thorum is participating in the CIGIE Inspection and
         Evaluation Committee, which, among other things, leads the development of protocols for
         reviewing management issues that cut across departments and agencies, promotes the use of
         advanced program evaluation techniques, and fosters awareness of evaluation and inspection
         practice in OIGs.




Page 8                        Semiannual Report to Congress
                              April 1, 2011 through September 30, 2011
                    Review of Legislation and Regulations
Pursuant to section 4(a)(2) of the IG Act, during this reporting period, we reviewed proposed
legislation to reauthorize Ex-Im Bank. The bills, S. 1547 and H.R. 2072, Securing American
Jobs Through Exports Act of 2011, would reauthorize Ex-Im Bank operations through 2015.
We limited our review to the impact of such legislation on the economy and efficiency of
Ex-Im Bank’s programs and operations and the prevention and detection of fraud and abuse.
In this vein, we believe that both pieces of legislation could have a significant impact on
Ex-Im Bank by requiring various reviews and reports on its operations. In particular, the
following sections of S. 1547 would require Ex-Im Bank to:

       •	 issue a 5-year strategic plan, including a comprehensive mission statement and
            general outcome-oriented goals and objectives, with clearly defined milestones
            (Section 10)
       •	 review its IT infrastructure and report to Congress on how it will modernize and
            maintain technology infrastructure (Section 11)
       •	 conduct an analysis of any barriers to reaching the Congressional target for
            renewable energy financing (Section 13)
       •	 conduct an annual survey of exporters, financial institutions, and brokers
            regarding Ex-Im Bank’s customer service during the application and approval
            process and compare the processing of applications to that of other Export Credit
            Agencies (ECAs)
In addition, section 12 of S. 1547 would require GAO to conduct a study on the financial
position of Ex-Im Bank and the risks it poses for American taxpayers and evaluate, among
other things, the effectiveness of its risk management and the adequacy of its loss reserves.

The IG raised the majority of these issues in testimony before the House Committee on
Financial Services Subcommittee on International Monetary Policy and Trade on May
24, 2011 and before the Senate Committee on Banking, Housing, and Urban Affairs
Subcommittee on Security and International Trade and Finance on June 30, 2011. In
addition, the OIG raised these same issues as major management challenges for Ex-Im Bank in
this semiannual report or listed them in its current audit or inspection plans for review.

As discussed in the Management Challenges section below, we have urged management
to engage in strategic and performance planning to chart a clear course for Ex-Im Bank
and determine the effectiveness of its performance. 2 In testimony before Congress, the IG

  2	 Under the GPRA Modernization Act of 2010, Ex-Im Bank is required to develop a strategic plan, an annual
     performance plan, and an annual performance report.




                                 Office of Inspector General                                        Page 9
                   Export - Import Bank of the United States
      expressed his view of Ex-Im Bank’s ineffective and inefficient IT platform. We are currently
      working with our contractor, BDO, on an audit of Ex-Im Bank’s IT infrastructure. Our
      audit objective is to provide management with findings and recommendations to improve IT
      management and provide timely service, effectively manage and track its programs, measure
      progress, identify transaction patterns, and increase productivity. We expect to issue the
      audit’s findings and recommendations during the upcoming reporting period.

      We have also listed Ex-Im Bank’s risk management and its efforts in reaching its renewable
      energy mandate as major management challenges. We expect to engage in a review of Ex-Im
      Bank’s risk management during the next reporting period.

      Finally, we have listed Ex-Im Bank’s customer service as a major management challenge.
      During this reporting period, the OIG worked with Ex-Im Bank to design a customer survey
      to seek feedback of its customer service and areas of operational efficiency. We expect to
      report the survey results during our next reporting period.

      Regarding H.R. 2072, we believe that sections 6 and 7, requiring GAO to conduct a study
      of Ex-Im Bank’s method for calculating the effects of its financing on job creation and
      maintenance and biennial audits of Ex-Im Bank transactions, could have a significant impact
      on the economy and efficiency of its operations. A review of Ex-Im Bank’s method to
      calculate job creation is important because its main financing objective is to “contribute to
      maintaining or increasing employment of United States workers.” An accurate methodology is
      crucial to determining the effectiveness of Ex-Im Bank’s financing on job creation. Although
      such a review has been in the OIG’s work plan, due to limited resources, we have been unable
      to commence work.

      In addition, biennial audits of a representative sample of Ex-Im Bank transactions to
      determine compliance with underwriting, due diligence, and content guidelines are important
      to ensure that financing is being used for its intended purpose in accordance with applicable
      laws, rules, and regulations. Due to limited resources, we have limited our review to the
      Medium-Term program. We would note, however, that while such audits are important, we
      also have plans to review whether Ex-Im Bank has credit underwriting and due diligence
      policies and rules sufficient to identify and prevent fraudulent transactions.

      Finally, both S. 1547 and H.R. 2072 address Ex-Im Bank’s domestic content policy. While
      S. 1547 only requires Ex-Im Bank to review, examine, and evaluate the effectiveness of its
      domestic content policy, H.R. 2072 requires the establishment of “clear and comprehensive
      guidelines” on domestic content using a variety of considerations. Requiring Ex-Im Bank to
      develop comprehensive and clear guidance stating domestic content requirements provides
      Ex-Im Bank users with a clear understanding of what goods and services qualify for guarantees
      and insurance coverage and the level of financing. This would allow for more transparency
      and openness in conducting business with Ex-Im Bank. This guidance should be developed




Page 10                    Semiannual Report to Congress
                           April 1, 2011 through September 30, 2011
by determining the level of domestic content coverage provided by other ECAs, input from
Ex-Im Bank participants (through Federal Register notices for public comments), and include
clear internal policies and procedures for proper implementation by Ex-Im Bank staff.

Of concern, however, is H.R. 2072’s requirement under section 5 that the IG conduct a
comprehensive evaluation of the impact on exporters and jobs of new or modified domestic
content guidelines and recommend how the guidelines could be modified to better facilitate
exports. We strongly believe that the scope of this evaluation falls outside the statutory role
of the IG of promoting economy and efficiency and detecting and preventing fraud, waste,
and abuse in Ex-Im Bank’s programs and operations. This requirement would require the
IG to, in essence, recommend an appropriate policy on domestic content. We believe such
determinations are the prerogative of Congress or Ex-Im Bank. Moreover, given our limited
resources, the OIG is not structured or sufficiently funded to produce such a report.



                     Ex-Im Bank Management Challenges
Beginning in February 2012, under the GPR A Modernization Act of 2010, Ex-Im Bank must,
among other requirements, prepare an agency performance plan to establish performance
goals and indicators, describe how the goals will be achieved and measured, and describe
major management challenges the agency faces along with planned actions to address such
challenges. The law defines “major management challenges” as “programs or management
functions . . . that have greater vulnerability to waste, fraud, abuse, and mismanagement (such
as issues identified by an Inspector General) where failure to perform well could seriously
affect the ability of an agency to achieve its mission or goals.”

To help Ex-Im Bank prepare the agency performance plan, the OIG has started identifying
major management challenges facing Ex-Im Bank. The IG, in testimony to Congress
during this reporting period, has discussed the majority of these challenges. We believe that
addressing these challenges would provide Ex-Im Bank with a more efficient capability to meet
its mission of creating and maintain jobs in the U.S. through export financing. We will review
and update these challenges each semiannual reporting period.

Human Capital The OIG has noted Ex-Im Bank’s low number of underwriters or loan
officers relative to the increasing size of its total asset exposure. Over the past five years,
Ex-Im Bank has witnessed significant asset growth with total exposure growing to $78 billion
as of FY 2010, with more than $32 billion in authorizations in FY 2011 alone. Ex-Im Bank
has achieved this increase with basically the same staffing level for the past decade. This
increase in workload undertaken by the same level of staffing may contribute to diminished
customer service, oversight, due diligence, and resulting high default rates. To better serve
its customers and provide effective underwriting and oversight, Ex-Im Bank should, within




                                Office of Inspector General                                Page 11
                  Export - Import Bank of the United States
      funding constraints, review and adjust its staffing levels and requisite in-house expertise to
      reflect the record growth in authorizations and asset portfolio management.

     IT Management Ex-Im Bank uses an ineffective, inefficient, and fragmented IT
     platform and infrastructure composed of several systems and databases. These systems and
     databases do not effectively and accurately interface with each other - compromising data
     integrity, producing duplicative information, and creating unreliable files. Further, these
     systems make data mining burdensome and time consuming. This ineffective IT platform
     compromises the ability of Ex-Im Bank to provide timely service, effectively manage and
     track its programs, measure progress, identify transaction patterns, and increase productivity.
     Among the IT issues facing Ex-Im Bank:

             •	 Lack of an end-to-end IT system allowing for seamless management of applications
                   and files, creating a workflow of information within and between different
                   components of Ex-Im Bank, and permitting staff to work on the same files at the
                   same time from the same platform.
             •	 Lack of a centralized and comprehensive participant database that would allow
                   Ex-Im Bank to capture and track all the participants (lenders, buyers, exporters,
                   suppliers, brokers, agents, and others) involved in different transactions at any
                   given moment in time. This weakness prevents Ex-Im Bank and our office from
                   conducting effective forensic analysis to identify possible patterns in transactions.
             •	 Because the IT platforms do not fully meet business and operational needs,
                   Ex-Im Bank divisions and components have created data sub-systems to address
                   the specific needs of that division or component. Some of these sub-systems
                   require manual input of data and do not interface with Ex-Im Bank’s main IT
                   infrastructure creating additional data repositories.
     The OIG is working with an outside contractor, BDO, to audit the IT function at Ex-Im
     Bank. We expect to issue the results of this audit during the next reporting period with
     findings and recommendations to improve IT management.

     Strategic and Performance Planning Although Ex-Im Bank issued a five‑year
     strategic plan in 2010, 3 it has not developed comprehensive annual performance plans in
     accordance with the Government and Performance Act of 1993 and Office of Management
     and Budget guidance.4 An effective strategic plan describes goals the agency aims to achieve,


        3	 Ex-Im Bank’s strategic plan can be found at http://exim.gov/pubs_center/ExImBankStrategicPlan2010_15.pdf

        4	 In our last semiannual report, we noted that, on December 2, 2010, Ex-Im Bank OIG issued a memorandum to
           Ex-Im Bank management requesting clarification on the application of Government Performance and Results
           Act of 1993 and the Report Consolidations Act of 2000 (RCA), which would allow Ex-Im Bank to consolidate
           any statutorily required reports into an annual Performance and Accountability Report. On March 16, 2011,
           Ex-Im Bank’s General Counsel replied that commencing in FY 2012, Ex-Im Bank would begin filing an Annual
           Performance Plan in accordance with the Government Performance and Results Act of 1993.



Page 12                        Semiannual Report to Congress
                               April 1, 2011 through September 30, 2011
what actions the agency will take to realize those goals, and how the agency will deal with
challenges and risks that may hinder achieving results. An APP enables an agency to have a
framework to measure the costs, benefits, results, and outcomes of its products, programs and
initiatives. Under the GPR A Modernization Act of 2010, Ex-Im Bank is required to, among
other things, produce a strategic plan, an APP, and an annual performance report by February
2012. We believe engaging in this process will help Ex-Im Bank focus its resources, establish
clear and measurable goals, and continuously monitor its performance to determine whether,
among other things:

       •	 products are achieving the intended results and reaching the intended audience;
       •	 marketing strategy is effective;
       •	 products are similar or more competitive than programs offered by other ECAs;
       •	 products should be altered or eliminated;
       •	 acceptable levels of defaults and claims have been established;
       •	 levels of defaults and claims should be improved; and
       •	 improvements in original implementation strategies are needed.
Risk Management Almost three years after the beginning of the financial crisis, the
financial world is still undergoing the aftershocks. Volatility in global financial markets is
more pronounced. Given Ex-Im Bank’s position as a “lender of last resort”, its authorizations
have grown in record numbers to support U.S. exports as private lending has contracted or
plateaued. Ex-Im Bank’s significant asset growth over the past five years, however, presents a
continual risk management challenge — how to adequately allocate reserves to cover potential
losses in its credit portfolio so that taxpayers are not affected by any unforeseen crisis.

The lessons learned from the crisis include the inadequacy of overreliance on historical
quantitative market data and the need for more robust scenario analysis and stress testing.
Different theories have emerged from the financial crisis to supplement traditional risk
management models. In essence, they encourage supplementing quantitative data with
contextual qualitative data and the testing of worst case scenarios to determine whether
financial institutions have the requisite reserves to withstand exogenous shocks. As Ex-Im
Bank moves forward, it should continuously review its risk management strategies to ensure
that its risk mitigation and loss reserve allocation policies are updated and reflect lessons
learned from the financial crisis.

Customer Service Ex-Im Bank has not conducted customer satisfaction surveys on a
regular basis. Customer surveys provide valuable insight into customer priorities, perceptions
of Ex-Im Bank performance, areas for improvement, and other ECA best practices. For
example, some Ex-Im Bank participants have complained in the past about approval times and




                                Office of Inspector General                              Page 13
                  Export - Import Bank of the United States
      process. Reducing the time it takes to approve transactions would allow American exporters
      to develop better relationships with clients and customers, encourage borrowers and sellers to
      use Ex-Im Bank, and improve the services Ex-Im Bank provides to its users.

      On April 27, 2011, President Obama issued Executive Order 13571 instructing Federal
      agencies to develop a customer service plan to streamline service delivery and improve
      customer experience. To this end, we recommend that Ex-Im Bank routinely utilize customer
      surveys to validate the priorities of its customers and its performance. During this reporting
      period, the OIG conducted a survey of performance metrics for operational efficiency of other
      ECAs and worked jointly with Ex-Im Bank to develop a customer survey. We expect to report
      the results of these surveys during the next reporting period.

      Credit Underwriting and Due Diligence Practices Currently, Ex-Im
      Bank uses a decentralized underwriting process and a risk-based due diligence model.5 Given
      the lessons learned from incidences of fraud in the Medium-Term program, the surge in the
      number of transactions, and insufficient credit information and history from borrowers in
      some regions, it is vital that Ex-Im Bank enhance credit underwriting and due diligence
      practices in order to better identify and prevent fraudulent transactions.

      In July 2010, Ex-Im Bank’s Board of Directors issued an Individual Delegated Authority
      (IDA) resolution authorizing certain individual Ex-Im Bank officers to approve loans,
      guarantees, and insurance up to $10 million. Before the IDA, Ex-Im Bank approved these
      transactions through a Credit Committee composed of members from different programs.
      The IDA resolution decentralized underwriting and decision making authority to each
      business unit. However, absent strong policies and procedures, decentralized underwriting
      and due diligence practices may cause inconsistent criteria to be applied in different programs.
      Ex-Im Bank needs to develop effective policies, procedures, and compliance practices to
      ensure the IDA works effectively. Some of these policies should address the following:

                 •	    uniform credit and underwriting standards to be used by all Ex-Im Bank credit
                       officers
                 •	    frequent use of security interest and sporadic inspections in order to better
                       mitigate risks in programs and regions where defaults and fraud experience has
                       been high




           5	 Under a risk-based model, the scope and depth of due diligence performed on a transaction varies depending on
              the perceived risk based on a variety of factors, such as the size of the transaction, country of import, nature of
              goods, and experience with the transaction participants.




Page 14                            Semiannual Report to Congress
                                   April 1, 2011 through September 30, 2011
        •	 use of financial statements in programs where defaults and fraud experience is
             high, in particular independently audited financial statements in regions where
             Ex‑Im Bank has limited or unfavorable lending experience
In the same vein, Ex-Im Bank should require lender partners and participants to conduct
industry standard due diligence on Government guarantees and insurance transactions. One
of the patterns our office has observed in our investigations is the lack of due diligence efforts
by lenders, specifically the ones who have a history of defaulted transactions. Even though
Ex-Im Bank expects such efforts from participating lenders, due diligence is not required in all
lender agreements.

The OIG has anecdotal evidence of loan officers in lending institutions expressing that
the lender would not devote resources on due diligence efforts when there is a government
guarantee and that such efforts are not required by Ex-Im Bank. Although the OIG is not
in a position to state that this is a behavior demonstrated by all lenders, we can certainly
state that this “moral hazard” issue has been prevalent in fraud cases involving multiple
transactions. Effective implementation of “Know Your Customer” practices by lenders could
help minimize or prevent fraudulent activity.

Corporate Governance, Business Processes, and Internal Control
Policies and Practices One of the consistent observations arising out of audits,
evaluations, and investigations conducted by the OIG are the weaknesses in governance and
internal controls in business operations. Internal policies providing clear guidance to staff and
establishing clear roles and authorities are not prevalent at Ex-Im Bank. These areas need to
be addressed as part of creating a better corporate governance culture.

For example, during our review of Ex-Im Bank’s Nigerian Credit Facility, 6 we noted that
Ex-Im Bank did not have any policies and procedures in place when establishing the facility.
In particular, Ex-Im Bank management failed to create policies and procedures that would
document and memorialize the steps to be taken to approve credits, factors to be considered
when approving credit, factors that would cause denial of credit or the cancellation of the
credit lines, and the extent of the due diligence efforts for such transactions and market.
Moreover, Ex-Im Bank management did not develop steps outlining how the banks’ credits
were going to be renewed, factors affecting the renewals, and reporting of facility activities to
the Board of Directors under the Special Delegation Authority granted by the Board. Each
OIG audit, evaluation, and inspection will review applicable governance and internal controls
and make recommendations to strengthen such controls accordingly.




  6	 Review of the Export-Import Bank Nigerian Facility , Special Report (OIG-SR-11-01), June 10. 2011, can be found
     at http://exim.gov/oig/documents/TransmittalandReport_110607.pdf.




                                   Office of Inspector General                                              Page 15
                     Export - Import Bank of the United States
     Renewable Energy Products and Clean Energy Export Opportunities
     Ex-Im Bank’s charter contains a Renewable Energy mandate of ten percent of all the
     authorizations every year. Although its financing for environmental beneficial exports has
     increased significantly during the last two years, Ex-Im Bank has not met this mandate yet,
     mainly because the renewable energy exports have not reached significant numbers (compared
     with the size of Ex-Im Bank’s portfolio).7 Nonetheless, Ex-Im Bank has taken a proactive
     approach in developing renewable energy specific products such as Solar Express, as well as
     reaching out to wind and solar manufacturers.

     In July 2010, GAO issued a report on Ex-Im Bank’s environmentally beneficial exports. 8 It
     found that although some of the challenges to reach the target may be outside its control,
     Ex-Im Bank should develop a clear strategy for meeting the target that is integrated into a
     broader strategy for Ex-Im Bank. It specifically recommended that Ex-Im Bank improve the
     tracking, reporting, and planning of its exports strategy to determine the resources required to
     meet its target. We continue to monitor Ex-Im Bank’s progress in this area.

     Small Business Participation Since the 1980s, Congress and the Executive
     Branch have prioritized the expansion of exports by small businesses. Since 2002, Ex-Im
     Bank’s charter has imposed a twenty percent small business participation goal of all aggregate
     authorizations every fiscal year. Ex-Im Bank has exceeded this mandate in the last five fiscal
     years. However, although it reached an all-time record of $6 billion in small business export
     financing in FY 2011, this amount fell short of the required twenty percent of all $32 billion in
     financing.

     GAO has reported on several aspects of Ex-Im Bank’s financing for small business exports.
     Most recently, GAO reported on the performance standards that Ex-Im Bank established for
     assessing its small business financing efforts. GAO found that Ex-Im Bank had developed
     performance standards in most, although not all, of the areas specified by Congress, ranging
     from providing excellent customer service to increasing outreach.9 They also found that some
     measures for monitoring progress against the standards lacked targets and time frames, and
     that Ex-Im Bank was just beginning to compile and use the small business information it


       7	 According to Department of Commerce data, the U.S. exported roughly $2 billion of manufactured renewable
          energy goods in 2009. In FY 2011, Ex-Im Bank supported $720 million in renewable energy financing, up from
          $30 million in 2008.

       8	 Export-Import Bank, Reaching New Targets for Environmentally Beneficial Exports Presents Major Challenges for Bank,
          July 2010, GAO-10-682, is available at http://www.gao.gov/new.items/d10682.pdf.

       9	 Export-Import Bank: Performance Standards for Small Business Assistance Are in Place but Ex-Im Is in the Early Stages
          of Measuring Their Effectiveness, July 2008, GAO-08-915, is available at http://www.gao.gov/new.items/d08915.
          pdf.




Page 16                         Semiannual Report to Congress
                                April 1, 2011 through September 30, 2011
was collecting to improve operations. We urge management to finalize its Small Business
performance plan and metrics to improve its program operations. We continue to monitor
Ex-Im Bank’s progress in this area.




                               Office of Inspector General                           Page 17
                 Export - Import Bank of the United States
               OFFICE OF AUDITS




              Office of Inspector General   Page 19
Export - Import Bank of the United States
                                                SUMMARY OF AUDIT ACTIVITY




The Office of Audits completed the Working Capital Guarantee Delegated Authority Program
audit during the six-month period ended September 30, 2011.

At the end of the reporting period, the Office of Audits had three audits in process:

 1.	 Management of Information Technology Infrastructure
 2.	 Ex-Im Bank’s Financial Statements for Fiscal Year 2011
 3.	 Fiscal Year 2011 Information Security Program and Practices and Technical
     Configuration Reviews



                                                                            Audits Issued

                          Working Capital Guarantee Delegated Authority
                                  Program (OIG-AR-11-04, July 08, 2011) 10
The OIG conducted an audit of the Working Capital Guarantee (WCG) Delegated Authority
(DA) Program. Ex-Im Bank’s working capital financing enables U.S. exporters to obtain
loans that facilitate the export of goods or services. These working capital loans, made
by commercial lenders and backed by Ex-Im Bank’s guarantee, provide exporters with the
liquidity to accept new business, grow international sales, and compete more effectively in the
international marketplace. We performed this audit because approximately 80 percent of all
working capital guarantees are committed under DA, making it a high risk area of concern.
The Working Capital Finance Division (WCFD)’s major priority is the effective management
and monitoring of the use of the WCG DA Program.




  10	 This report is available online at http://www.exim.gov/oig/documents/WCGDA%20final%20report%20110708.
      pdf.




                                 Office of Inspector General                                             Page 21
                   Export - Import Bank of the United States
      The objective was to determine whether Ex-Im Bank supplied sufficient oversight of lenders
      granted DA to approve working capital guarantees. The specific audit objectives were to
      evaluate: (1) oversight practices used to ensure that lenders comply with Ex-Im program
      guidelines; (2) timeliness in notifying lenders of identified exceptions; (3) internal controls
      to ensure examination results are properly managed; and (4) internal controls over lenders to
      reduce/eliminate claims and to safeguard taxpayer funds.

      As of September 30, 2010, there were 45 active DA lenders in the WCG Program with an
      open loan facilities value of approximately $1.5 billion. The audit focused on lenders with
      current facility loans under the WCG DA agreement during fiscal years 2009 and 2010. We
      selected a sample of 10 lenders out of 45 current WCG DA lenders during this period for our
      review. We also selected 12 claim files for a limited review to determine whether procedures
      were followed and appropriate decisions were made.

      Our audit found that WCFD generally complied with its policies and procedures to perform
      an examination of WCG DA lenders. Examinations are scheduled at annual intervals unless
      more frequent examinations are required. Of the ten lenders reviewed, we found that an
      examination was generally performed annually by WCFD.

      We also found that WCFD generally complied with its policies and procedures to notify
      lenders of identified exceptions found during examination. Of the ten lenders reviewed,
      WCFD discussed all findings with lenders’ management at the examination exit conference
      and generally timely sent the lender a notification letter summarizing the examination results.

      We identified no trend on the type of waivers lenders requested. Of the 10 lenders sampled,
      we reviewed 17 loan files and found 62 waivers requested by lenders and approved by WCFD.
      These 62 waivers generally covered different Ex-Im Bank requirements. We performed this
      test because lending officers stated that requirements should be reduced because a waiver is
      frequently needed. Therefore, we reviewed approved waivers to determine if Ex-Im Bank
      should consider changing a requirement(s) based on the requirement’s importance and
      frequency of a requested waiver.

      While WCFD’s efforts were positive, we noted that improvements are needed to strengthen
      follow-up procedures and controls and to maintain DA data. Management concurred with the
      three recommendations we made to address these findings:

             •	   WCFD Vice President (VP) should develop policy and procedures to (a)
                  ensure that a follow-up is timely performed to verify that the lender had taken
                  the appropriate action on a material exception, (b) closely monitor potential
                  problematic lenders by performing more frequent on-site examinations, (c) take
                  action to alert lenders with repeated material exceptions of possible removal of




Page 22                     Semiannual Report to Congress
                            April 1, 2011 through September 30, 2011
           their DA from Ex-Im Bank, and (d) establish a performance level to identify an
           acceptable claim rate against the total authorized facilities from a lender.
           űű Management implemented recommendation parts (a), (b), and (c) by July 31,
                2011. Management plans to implement part (d) by November 1, 2011.
       •	 WCFD VP should maintain a central record to document all examination results
           on lenders in the WCG DA Program.
           űű Management implemented this recommendation by July 31, 2011.
       •	 WCFD VP should maintain vital information to evaluate the WCG DA Program
           performance.
           űű Management plans to implement this recommendation by February 1, 2012.


                                                                 Ongoing Audits

               Management of Information Technology Infrastructure
An Independent Public Accountant (IPA), BDO, working under OIG oversight, is conducting
an audit of IT infrastructure management. This audit is evaluating whether the IT systems at
Ex-Im Bank are able to support Ex-Im Bank’s mission effectively and efficiently. The specific
audit objectives are to:

       •	 identify key data and procedures used by Ex-Im Bank to process and monitor its
           loan, guarantee, and insurance products, as well as loan default and guarantee and
           insurance claims.
       •	 identify interoperability of Ex-Im Bank’s four critical IT applications.
       •	 determine whether Ex-Im Bank’s IT systems provide useful information to
           effectively and efficiently process and monitor activity.
       •	 identify effectiveness of applications and systems as they relate to Ex-Im Bank’s
           operating mission.
       •	 identify annual expenditures on IT systems and determine the amounts applied to
           maintain and improve its systems.
Audit work commenced in April 2011. The OIG anticipates the IPA will issue its audit report
in November 2011.




                               Office of Inspector General                              Page 23
                 Export - Import Bank of the United States
      Ex-Im Bank’s Financial Statements for Fiscal Year 2011
      Deloitte, an IPA working under OIG oversight, is performing an audit of Ex-Im Bank’s FY
      2011 financial statements. The IPA is also performing audit follow-up work on a significant
      deficiency in Ex-Im Bank’s internal control over financial reporting reported in audit of the
      Export-Import Bank of the United States Fiscal Year 2010 Financial Statements (OIG-AR‑11‑01,
      November 15, 2010) and the three recommendations made in the Fiscal Year 2010 Financial
      Statement Audit – Management Letter Excerpt (OIG-AR-11-03E, January 6, 2011).11

      Audit work commenced in May 2011. The OIG anticipates the IPA will issue its opinion on
      the FY 2011 financial statements in November 2011.



      Fiscal Year 2011 Information Security Program and
      Practices and Technical Configuration Reviews
      The Federal Information Security Management Act (FISMA) requires an annual independent
      evaluation of U.S. government agency information security programs and practices. The OIG
      contracted an IPA, Cotton & Company, LLP, to perform the FY 2011 FISMA review of Ex-Im
      Bank’s systems.

      The audit includes assessing Ex-Im Bank’s progress in developing, documenting, and
      implementing an agency-wide program to provide security for the information and
      information systems that support operations and assets of Ex-Im Bank. The audit also
      includes reviewing Ex-Im Bank’s privacy program, the privacy impact assessment process, and
      performing audit follow-up work on the one recommendation made in the audit report Fiscal
      Year 2010 Information Security Program and Practices and Technical Configuration Reviews
      (OIG-AR-11-02, December 15, 2010).12

      Audit work commenced in July 2011. The OIG anticipates the IPA to respond to the Office
      of Management and Budget reporting requirements on the audit results in November 2011
      and issue an audit report in December 2011.




           11	 The report of the Export-Import Bank of the United States Fiscal Year 2010 Financial Statement (OIG-AR-11-01)
               can be found at http://www.exim.gov/oig/documents/FY_2010_Financial_Report.pdf. The report of the Fiscal
               Year 2010 Financial Statement Audit – Management Letter Excerpt (OIG-AR-11-03E) can be found at http://www.
               exim.gov/oig/documents/FinancialStatementReport2010.pdf.

           12	 The report of the Fiscal Year 2010 Information Security Program and Practices and Technical Configuration Reviews
               (OIG-AR-11-02 can be found at http://www.exim.gov/oig/documents/FISMA_Report_2010.pdf.




Page 24                            Semiannual Report to Congress
                                   April 1, 2011 through September 30, 2011
                                                           Audit Follow-up
No recommended actions remain open on audits reported in the previous Semiannual Report.




                              Office of Inspector General                         Page 25
                Export - Import Bank of the United States
 OFFICE OF INSPEC TIONS




              Office of Inspector General   Page 27
Export - Import Bank of the United States
                                      SUMMARY OF INSPECTION ACTIVITY




In late 2010, Ex-Im Bank OIG launched the Office of Inspections with the hire of Mark
Thorum as Senior Inspector. This function assesses the efficiency and effectiveness of Ex-Im
Bank programs and operations, reviews and evaluates projects, transactions, policies and
procedures, and develops recommendations for improving program performance. The Office
of Inspections’ mission is to provide oversight policy guidance and to conduct objective and
independent assessments.

Inspections contribute to sound financial governance in several respects. First, they can
help identify program vulnerabilities and improve efficiency. Second, they may provide an
early warning system for transactions that may experience difficulties in the future. Finally,
inspections can serve as a deterrent for potential fraud as exporters, importers, and local
lenders will be subject to additional scrutiny post-closing. This is particularly relevant
for transactions consummated in developing countries that may lack a sound regulatory
framework or have a prior track record of corruption.

Ex-Im Bank transactions selected for review by the Office of Inspections typically meet one
or both of the following criteria: (i) Ex-Im Bank experiences a loss of $10 million or above;
or (ii) OIG receives allegations of fraud that may lead to a loss for Ex-Im Bank from a specific
transaction or borrower.




                                                                          Inspections Issued
On July 8, 2010, Ex-Im Bank received allegations of possible corruption against managers
of two Nigerian banks participating in the Ex-Im Bank’s Nigerian Banking Facility (NBF)
established in 2006 through a Special Delegation Authority (SDA).13 In addressing these
allegations, our office conducted a review to determine whether:




  13	 A SDA is a special vehicle that provides for a blanket internal delegation of authority, after approval by the Board
      of Directors, for transactions for up to a pre-determined credit limit without the need to take each individual
      transaction to credit committee.




                                    Office of Inspector General                                                        Page 29
                      Export - Import Bank of the United States
            •	   potential exposure to fraud existed through actions taken by participating banks
                 investigated by the Nigerian authorities.
            •	   policies and procedures to establish credit facilities existed and were properly
                 implemented.
            •	   participating banks were required to report to Ex-Im Bank any corruption
                 investigations, charges and/or convictions by local authorities, and if so, whether
                 the information was disclosed.
     After conducting a review of available documents, including documentation on transactions
     under the credit facility, and interviews with Ex-Im Bank personnel who participated in the
     establishment of the credit facility, the OIG noted the following observations:

            •	   Transactions conducted by the two investigated banks and underwritten by Ex-Im
                 Bank under the NBF did not demonstrate any indicia of fraud.
            •	   Ex-Im Bank lacked formal policies and procedures when it established the SDA
                 and credit facility. Ex-Im Bank supervisors provided email guidance to Ex-Im
                 Bank staff stating factors to be considered under due diligence review during the
                 selection of the fourteen participating banks.
            •	   Participating banks were not required to provide certifications or representations
                 to Ex-Im Bank of compliance with U.S. or Nigerian laws, including anti-
                 corruption certifications or statements and there is no indication that the two
                 investigated banks in question informed Ex-Im Bank of any Nigerian based
                 investigation or allegation of corruption involving senior management.
     The OIG determined that the underwriting process for the Nigerian participating banks
     was conducted utilizing commercial industry standards. Although some of the participating
     banks experienced intervention by the Central Bank of Nigeria (CBN) leading to an industry-
     wide consolidation of financial institutions, the NBF was not significantly affected by this
     consolidation. However, Ex-Im Bank management and the Board of Directors eventually
     removed some of the participating banks from the NBF, including the two investigated banks,
     due to credit concerns arising out of the CBN intervention. Given the nature of the credit
     facility, the size of the credit facility, and risk associated with credit transactions in Nigeria,
     the OIG issued the following suggestions to Ex-Im Bank management:

            •	   Develop policies and procedures clearly defining when a SDA is beneficial to
                 American exporters and to achieving Ex-Im Bank’s mission.
            •	   Develop policies and procedures describing how credit facilities would be
                 established and describing the extent of credit analysis and reputation checks to be
                 conducted. Such policies and procedures should clearly state:
                 űű how to calculate and determine the credit limits to be extended under such
                      facilities;



Page 30                     Semiannual Report to Congress
                            April 1, 2011 through September 30, 2011
             űű the steps to be taken, including credit and reputation factors to be considered,
                  when conducting underwriting of lenders, guarantors, buyers and any other
                  third parties involved in the transactions;
             űű guidance to Ex-Im Bank credit officers about their ability to request
                  documentation from guarantors and any other third parties relevant to
                  determining the credit ability of such parties and the reputation of the
                  credit facility participants (as it relates to potential fraudulent or corruption
                  activities); and the requirement of statements and certifications of compliance
                  with foreign and domestic laws, including anti-corruption certifications
                  from participating lenders’ and guarantors’ upper/senior managers (as
                  stated on Ex-Im Bank’s Transaction Due Diligence Best Practices).14 These
                  certifications should be required every time the credit facility is renewed.
       •	 Establish an anti-corruption hotline where allegations of corruption practices can
             be reported to Ex-Im Bank by project participants or others with information
             about possible corruption practices in any country. A similar anti-corruption
             hotline has been established by other U.S. government organizations, such as the
             Overseas Private Investment Corporation. Any information received through this
             hotline should be reported immediately to the Office of the General Counsel and
             shared with the OIG.



                      Ongoing Inspections and Evaluations

 Export Financing and Loan Guarantee for Darussafaka Cemiyeti
The Office of Inspections is conducting an inspection of a failed, $40 million transaction
to Darussafaka – a Turkish, non-government association. In December 2003, Ex-Im Bank
approved a long term loan guarantee in the amount of $38,065,666 to Darussafaka. The
guaranteed lender was Deutsche Bank. Proceeds of the loan were to support the sale of U.S.
goods and services for the construction of a luxury retirement community in Urla and an
auditorium in Istanbul (both in Turkey).

The inspection’s objectives are to:

       •	 develop an explanation of events and causal factors that led to the failure of the
             project and subsequent payment default by the borrower


  14	 This document can be found at http://www.exim.gov/pub/pdf/Due-Diligence-Guidelines.pdf.




                                  Office of Inspector General                                   Page 31
                    Export - Import Bank of the United States
            •	   determine what Ex-Im Bank could have done differently from a credit approval
                 and monitoring perspective to mitigate the risk of loss
            •	   examine whether any of the involved parties committed corporate malfeasance and
                 fraud
            •	   research alternatives to extract additional value from the proposed settlement with
                 the borrower
            •	   provide suggestions for future action including possible restructuring options for
                 the failed transaction
     We expect to issue the results of this inspection during the next reporting period.



     Evaluation of Performance Metrics for Operational
     Efficiency and Customer Service
     This evaluation examines Ex-Im Bank’s operational performance with a focus on transaction
     response times. The evaluation seeks to determine ECAs best practices and to benchmark
     Ex-Im Bank’s performance against these practices. As part of the evaluation, we interviewed
     Ex-Im Bank management and conducted a survey on performance metrics for operational
     efficiency. The survey targeted ECA peers with similar operations to Ex-Im Bank. In
     addition, we are working with Ex-Im Bank to conduct a general customer service survey. We
     expect to issue the results of the survey and evaluation during the next reporting period.




Page 32                    Semiannual Report to Congress
                           April 1, 2011 through September 30, 2011
OFFICE OF INVESTIGATIONS




                Office of Inspector General   Page 33
  Export - Import Bank of the United States
                        SUMMARY OF INVESTIGATIVE ACTIVITY




During this reporting period, the Office of Investigations (OI) achieved several milestones
and accomplishments toward meeting mission objectives of investigating trade finance
and export credit fraud impacting Ex-Im Bank. In addition to receiving law enforcement
authority under the IG Act by the Attorney General, these actions include:

       •	 six criminal judgments resulting in 245 months imprisonment, 216 months
           probation, and $92,985,790 in criminal restitution and special assessments
       •	 seventeen administrative actions stemming from referrals of active investigative
           information resulting in $14,308,923 in cost savings and repayments to Ex-Im
           Bank, 2 voluntary exclusions, 120 months of debarment and 36 months of
           suspension
       •	 six criminal informations and indictments against subjects of ongoing
           investigations
       •	 nine plea agreements entered in court by subjects pursuant to ongoing
           investigative matters
       •	 two arrest warrants and making one arrest based on warrants obtained by Ex-Im
           Bank OIG Special Agents
       •	 six investigative matters referred to the Department of Justice for prosecutive
           decision
       •	 forty pieces of investigative information referred to Ex-Im Bank Office of General
           Counsel concerning potential fraud and funds at risk to support enhanced due
           diligence efforts in approving, processing, and monitoring export credit loan
           guarantees and insurance policies




                                Office of Inspector General                                   Page 35
                  Export - Import Bank of the United States
SUMMARY OF INVESTIGATIONS



     The OI evaluates all allegations and information of possible fraud or illegality affecting Ex-Im
     Bank programs and activities. Such allegations are received from a variety of sources – Ex-Im
     Bank employees, the Ex-Im Bank Office of General Counsel, participants in Ex-Im Bank
     transactions, other government agencies, and the Ex-Im Bank OIG hotline. Evaluations that
     identify reasonable indications of possible fraud or illegality result in an investigation. These
     investigations are summarized in the table below.


      Summary of Investigative Activity                      Investigations                                      Amount Of
                                                                                     No. Of Claims*
      During Period                                              Totals                                           Claims

      Investigations open as of April 1,
                                                                     37                       534                 $348,359,816
      2011


      Opened during period                                            8                        5                     $2,914,073


      Closed during period                                           (10)                     (9)                  ($3,941,293)


      Investigations open as of September
                                                                      35                      530                 $347,332,596
      30, 2011


          *	   The number and amount of claims paid subject to investigation. Not all investigations involve claims paid by
               Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed in the period,
               but may be related to other active investigations. The referral of a claim to the OIG for investigation does not
               establish the existence of fraud, and not all claims included in a case under investigation are necessarily fraudulent
               until proven so by evidence developed in the investigation. The number of claims may vary during the course of
               an investigation as facts and findings develop.




Page 36                             Semiannual Report to Congress
                                    April 1, 2011 through September 30, 2011
                                 SUMMARY OF INVESTIGATIVE RESULTS



The Office of Investigations obtained the following actions during this reporting period.

                                                                                  JOINT
DESCRIPTION                                                       OIG                                   TOTAL
                                                                                ACTIVITIES*
Matters Referred to the Department of Justice                       6                   0                    6

Arrest Warrants Obtained                                            2                   0                    2

Arrests Made                                                        1                   0                    1

Criminal Indictments, Informations,
                                                                    2                   4                    6
Complaints

Pleas Entered                                                       2                   7                    9

Criminal Judgments                                                  2                   4                    6

Prison Time (months)                                               109                 136                 245

Probation (months)                                                  72                 144                 216

Court Ordered Criminal Fines, Restitution,
                                                              $12,983,106        $80,002,684         $92,985,790
and Forfeiture

Administrative Actions**                                            12                  5                   17

Administrative Cost Savings and Repayments                    $11,675,773         $2,633,150         $14,308,923


 *	 Joint investigations with other law enforcement agencies
 **	 Administrative actions are actions taken by Ex-Im Bank to stop transactions, cancel policies, or protect funds at
     risk based upon investigative findings.




                                   Office of Inspector General                                                      Page 37
                     Export - Import Bank of the United States
INVESTIGATIONS




      Loan Guarantee, Expor t Credit
      Insurance, Direct Loans
      Two of Ex-Im Bank’s key programs – the loan guarantee program and the export credit
      insurance program - have been particularly susceptible to fraud schemes by foreign borrowers,
      U.S.-based exporters, and other transaction participants, including deal brokers commonly
      referred to as “agents” or “finders” who assist in arranging the transactions and shipments.
      These two programs account for the majority of investigations currently underway. Each
      program offers different features to Ex-Im Bank customers, but criminal activity exploits
      certain processes within the programs in order to induce Ex-Im Bank to approve fraudulent
      loan guarantees or insurance coverage. Investigations also occur in other areas, such as Direct
      Loans, or in matters having to do with the integrity of Ex-Im Bank programs and processes.


                               Loan Guarantee Program
           Ex-Im Bank assists exporters by guaranteeing term financing from a
           commercial lender to creditworthy international buyers, both private and
           public sector, for purchases of U.S. goods and services. Ex-Im Bank’s
           guarantee of a lender’s loan to an international buyer is used to finance
           purchases of U.S. goods and services. Criminals have exploited this program
           by submitting false financial statements of foreign borrowers in order to
           induce Ex-Im Bank to provide its guarantee coverage for a loan for which
           they might otherwise be ineligible or by submitting false documentation to
           the guaranteed lender and Ex-Im Bank regarding the shipment, nature, or
            quantity of the U.S. goods allegedly being exported.




       Successful investigative efforts within the loan guarantee program during the reporting period
       include the following:




 Page 38                    Semiannual Report to Congress
                            April 1, 2011 through September 30, 2011
                                Miami Supplier Sentenced for Role in $1.3 Million
                                 Scheme to Defraud the U.S. Export-Import Bank
A Miami, Florida resident was sentenced on September 2, 2011, to 12 months and one day
in prison for his role in a scheme to defraud Ex-Im Bank of more than $1.3 million. The
sentencing caps ongoing investigative efforts by the OIG to examine fraudulent exports into
South America and elsewhere.

Mardin Varela, 54, a Canadian citizen and lawful permanent resident of the United States,
was also sentenced by Judge Reginald Walton in U.S. District Court in Washington, D.C.,
to three years of supervised release and was ordered to pay $1,560,186.39 in restitution
and $351,833.90 in forfeiture. Varela pleaded guilty on December 17, 2010, to a criminal
information charging him with one count of conspiracy to defraud the United States and to
commit mail fraud.

Pursuant to his plea, Varela admitted that he was the President and owner of Nova Medical
Systems Corporation, a medical equipment supplier located in Miami, Florida. From
approximately March 2006 until approximately May 2007, Varela joined others in a
conspiracy to fraudulently obtain a loan intended for the purchase and shipment of medical
supplies to a buyer in Colombia. Ex-Im Bank guaranteed that loan. Varela admitted that he
and his co-conspirators falsified documents sent to the lending bank and to Ex-Im Bank in
order to misappropriate approximately $1,332,000 in loan proceeds. As part of the conspiracy,
Varela and his co-conspirators falsified invoices and shipping records, then purchased and
shipped goods that were of different type and quality than those guaranteed by Ex-Im Bank.
Varela and the co-conspirators then split the balance of the loan proceeds between themselves.
As a result of the fraud, the loan defaulted, and Ex-Im Bank paid the claim to the assignee of
the loan, in the amount of $1,332,081.65.


                         Exporter Sentenced for Conspiring to Defraud the U.S.
                                   Export-Import Bank of More than $1 Million
On June 12, 2011, Juan Rios, 57, of El Paso, Texas, was sentenced for his participation in a
scheme to defraud Ex-Im Bank of more than $1 million. Rios was sentenced in U.S. District
Court in Washington, DC to three months of time already served in prison, 36 months
supervised release, and 6 months home confinement. Rios was also ordered to pay a $200
special assessment fee and $1,016,126 in forfeiture. Rios had previously pleaded guilty on
October 28, 2009, to a two-count criminal information charging him with conspiracy to
defraud Ex-Im Bank and to commit wire fraud. The criminal information also charged a
criminal forfeiture against Rios totaling $1,016,126.26. Rios was arrested on August 20, 2009
in El Paso, Texas, as he crossed the border into the United States.




                               Office of Inspector General                              Page 39
                 Export - Import Bank of the United States
     According to court documents and testimony during sentencing, Rios was the owner of El
     Paso Precision and Tool Grinding, a company through which Rios acted as a supplier and an
     exporter in Ex-Im Bank transactions. Between January 2004 and December 2006, Rios and
     others conspired to prepare and submit fraudulent loan documents, a false commercial invoice,
     a false packing list, a false exporter’s certificate, and false bills of lading purporting that
     equipment was purchased in the United States and shipped to Mexico.

     According to court records, in October 2004, Rios, through his company, received
     approximately $985,000 in loan proceeds from the lending bank based on Rios’ false
     representations to the lending bank and Ex-Im Bank. Instead, according to plea documents,
     it was the purpose of the conspiracy for the co-conspirators and Rios to unlawfully enrich
     themselves financially by submitting false and fraudulent information to Ex-Im Bank, through
     the lending bank, to obtain and misappropriate certain loan proceeds. As a result of the
     fraudulent transaction, the loan defaulted and Ex-Im Bank paid the lending bank’s claim for
     outstanding principal and accrued interest of approximately $1,016,000 according to court
     records.

     This case was prosecuted by the DOJ Fraud Section. The scheme was discovered by OI
     agents pursuant to a joint investigation with Internal Revenue Service Office of Criminal
     Investigation, Washington, Immigration and Customs Enforcement, El Paso, U.S. Postal
     Inspection Service’s Washington Division, and FBI’s El Paso Division.


     Three Charged and Subsequently Pleaded Guilty
     to Criminal Fraud against Ex-Im Bank
     During this reporting period, three defendants, involved in separate ongoing cases, were
     charged by criminal indictment and informations in various judicial districts with various
     counts of wire fraud, mail fraud, and conspiracy regarding their involvement in Ex-Im Bank
     fraud schemes. Subsequent to the charges, each defendant pleaded guilty in the respective
     U.S. District Court in which they were charged. These criminal charges and guilty pleas
     highlight successful investigative efforts to address loan guarantee fraud in Mexico, South
     America, and elsewhere. As of the end of this reporting period, the three defendants are
     awaiting sentencing in federal court and these investigations concerning $22 million in claims
     against Ex-Im Bank are continuing.


     Four Pleaded Guilty to Fraudulent Exports to Mexico
     During this reporting period, four defendants pleaded guilty to criminal charges in federal
     court concerning their roles in several fraudulent exports to Mexico resulting in $29 million
     in claims against Ex-Im Bank. All of the defendants were arrested and criminally charged
     last year with crimes against Ex-Im Bank. The guilty pleas cap successful efforts by OIG




Page 40                    Semiannual Report to Congress
                           April 1, 2011 through September 30, 2011
Special Agents to detect and investigate a variety of fraud schemes used by the defendants and
others to obtain cash loan proceeds from lenders guaranteed by Ex-Im Bank, then keep or
send cash to foreign borrowers in Mexico. Once the loan has defaulted, Ex-Im Bank will pay
the claim as guaranteed under the program. In these types of investigations, several parties
may be involved to help falsify loan applications, create fake export and shipping records, and
distribute stolen loan proceeds worldwide. As of the end of this reporting period, the four
defendants are awaiting sentencing in federal court and these investigations are continuing.


                         Export Credit Insurance Program
             This program offers protection in the form of several different
             insurance policy types to U.S. exporters and their lenders against
             non-payment by foreign buyers due to commercial and political risks.
             Export credit insurance allows exporters to increase export sales by
             limiting international repayment risk, offering credit to international
             buyers, and enabling exporters to access working capital funds. One
             fraudulent scheme to exploit this program involves the falsification of
             shipping records to convince Ex-Im Bank that the described goods have
               been shipped when in fact they have not.



Successful investigative efforts within the export credit insurance program during the
reporting period include the following:


                       Texas Resident Sentenced to 70 Months in Prison for $17
                       Million Scheme to Defraud the U.S. Export-Import Bank
On May 26, 2011, Jose Velasco, an El Paso, Texas resident, was sentenced to 70 months in
prison for his role in a scheme to defraud Ex-Im Bank of more than $17 million. Velasco, 40,
was also sentenced by Judge Reginald Walton in U.S. District Court in Washington, D.C., to
three years of supervised release and was ordered to pay $17.9 million in restitution and $17.9
million in forfeiture. Velasco pleaded guilty on September 24, 2010, to a criminal information
charging him with one count of wire fraud and one count of conspiracy to defraud the United
States.

According to court documents, Velasco was the owner of Alamo Freight Forwarding, a
company located in El Paso that purported to be a freight forwarding company specializing
in the export of heavy equipment to Mexico. Velasco admitted that he and others conspired
to defraud Ex-Im Bank. From April 2004 through November 2007, Velasco purported to
act as a freight forwarder in approximately 13 loan transactions with various lending banks




                                Office of Inspector General                              Page 41
                  Export - Import Bank of the United States
     whose loans were insured or guaranteed by Ex-Im Bank. The transactions involved a total
     of approximately $17.9 million. As part of the fraud scheme, Velasco and others prepared
     and submitted false documents to Ex-Im Bank falsely stating that goods and equipment
     had been purchased and shipped to buyers in Mexico. Velasco and others prepared false
     commercial invoices, bills of sale, bills of lading, and false Mexican Customs documents called
     “Pedimentos.” According to court records, all of the fraudulent loans in which Alamo Freight
     Forwarding was involved subsequently defaulted, causing Ex-Im Bank to pay claims losses to
     the lending banks in the amount of $17.9 million.


     Exporter Sentenced For Conspiring to Defraud the U.S.
     Export-Import Bank of More than $23 Million
     On April 18, 2011, Ismael Garcia, 50, of Miami, FL, was sentenced for his role in a scheme to
     defraud Ex-Im Bank of more than $23 million. The sentencing capped a joint investigation
     conducted by Homeland Security Investigations, El Paso, Texas, and Ex-Im Bank OIG Special
     Agents concerning fraudulent loans and exports to borrowers in Mexico and elsewhere.

     Garcia was sentenced by Judge Richard W. Roberts in U.S. District Court in Washington,
     DC, to 51 months imprisonment, 36 months of supervised release, $17,996,054 in restitution,
     $23,084,175 in forfeiture, a $200 special assessment, and 100 hours of community service
     upon release. Garcia had previously pleaded guilty on October 19, 2010 to a two-count
     criminal information charging him with conspiracy to defraud Ex-Im Bank and to commit
     wire fraud.

      According to court documents, Garcia was President of US Trade Industries Inc., an export
      company in Miami, FL, that purported to be in the business of purchasing United States
      goods on behalf of foreign clients and shipping those goods overseas. Garcia admitted during
      his plea hearing that from April 2004 through November 2007, he acted as a purported
      exporter in approximately 31 loan transactions involving approximately $23 million in loans
      from U.S. lending banks that were insured by Ex-Im Bank. Garcia admitted during court
      proceedings that all of the loans were fraudulent and no goods or machinery of any kind were
      ever exported as reported to Ex-Im Bank. Garcia personally retained approximately $1.1
      million of these fraudulently obtained loan proceeds for his personal use and benefit. The
      remaining monies were sent to other co-conspirators and foreign buyers in Mexico, instead of
      using the money to purchase and export U.S. manufactured goods as intended. According to
      court records, the loans defaulted, causing Ex-Im Bank to pay nearly $18 million in losses.




Page 42                    Semiannual Report to Congress
                           April 1, 2011 through September 30, 2011
                     Florida Resident Sentenced in Scheme to Defraud the U.S.
                               Export-Import Bank of Approximately $1 Million
On June 27, 2011, Jose L. Quijano of Aventura, FL, was sentenced to 46 months in prison for
his role in a scheme to defraud Ex-Im Bank of nearly $1 million. Quijano, 43, was sentenced
in absentia by Judge Adalberto J. Jordan in U.S. District Court in Miami to an additional 36
months of supervised release and was ordered to pay $956,251 in restitution. Quijano pleaded
guilty on February 9, 2011, to a criminal information that charged him with conspiracy to
commit wire fraud in connection with a scheme to defraud Ex-Im Bank of $956,251. Quijano
fled from pre-trial release on June 7, 2011 and is currently a fugitive.

According to court documents, Quijano was the owner of Gangaland, USA LLC, an
electronics exporting company located in Miami, FL, that purported to be in the business of
purchasing and exporting electronic and computer parts to foreign buyers in South America.
Quijano admitted that he and others conspired to defraud Ex-Im Bank by devising a scheme
to obtain money and property by false and fraudulent pretenses. According to court records,
Quijano and others obtained loans guaranteed by Ex-Im Bank and misappropriated the loan
proceeds for their own use and benefit.

From 2008 through 2010, Quijano, through his company Gangaland, acted as an exporter
in 96 loan transactions insured by Ex-Im Bank and received approximately $3,637,806 in
proceeds. Quijano admitted that he and others falsified financial statements, waybills,
purchase orders and bills of lading to falsely represent to various lending banks and Ex-Im
Bank the purchase and export of U.S. goods to buyers in South America. According to court
records, all of the loans involving Gangaland were fraudulent and no U.S. goods of any kind
were shipped to South American buyers. As a result of the fraud the Gangaland loans went
into default, causing Ex-Im Bank to pay claims losses to the lending banks in the amount of
$902,450.


                           Owner of Miami Company Sentenced to 63 Months in
                                     Prison for Scheme to Defraud Ex-Im Bank
On July 18, 2011, the owner of an investment planning company in Miami, FL, was sentenced
to 63 months in prison for his role in a scheme to defraud Ex-Im Bank of nearly $5.2 million.
Carlos L. Morano, 51, was sentenced by Judge Cecilia M. Altonaga in U.S. District Court in
Miami. In addition to his prison term, Morano was sentenced to three years of supervised
release and was ordered to pay $5.2 million in restitution and $6.8 million in forfeiture. 
Morano pleaded guilty on May 6, 2011, to one count of conspiracy to commit wire fraud and
one count of wire fraud in connection with a scheme to defraud Ex-Im Bank of approximately
$5.2 million. Morano, a naturalized U.S. Citizen, most recently resided in Buenos Aires,




                               Office of Inspector General                             Page 43
                 Export - Import Bank of the United States
     Argentina, until his arrest on Nov. 8, 2010, in Atlanta, where he arrived after an international
     flight from Argentina. The warrant for his arrest was obtained by Ex-Im OI Special Agents.

     According to court documents, Morano was the owner of CLM Financing and Investments,
     an investment planning company located in Miami that purported to be in the business of
     brokering loans and providing financial advice to Florida exporters. During his plea hearing,
     Morano admitted that he assisted 17 exporters obtain fraudulent loans that were insured
     by Ex-Im Bank.  According to court records, Morano and others misappropriated the loan
     proceeds for their own use and benefit. From 2007 through 2010, Morano, through his
     company CLM, charged exporters up to $35,000 to prepare fraudulent loan applications and
     financial statements. Morano admitted that he instructed the exporters on how to prepare
     false purchase orders, invoices, account receivable forms, and bills of lading to falsely represent
     to various lending banks and Ex-Im Bank the purchase and export of U.S. goods to buyers
     in South and Central America. Morano often charged the exporters a monthly service fee to
     continue providing false shipping documents and financial documents that would pass Ex-Im
     Bank review. 

     According to court records, all of the loans involving Morano were fraudulent. As a result
     of the fraud the loans went into default, causing the Ex-Im Bank to pay claims losses to the
     lending banks in the amount of $5,219,756.


     Two Defendants Charged in Export Credit Insurance Fraud Investigations
     In separate investigations into export credit insurance fraud against Ex-Im Bank, two
     defendants were charged during the reporting period for their role in the schemes resulting
     in $3.5 million in claims. One of the defendants subsequently pleaded guilty to the charge.
     In these types of schemes, exporters seek and obtain export credit insurance backed by
     Ex-Im Bank for exporting products abroad. However, instead of shipping the goods, these
     individuals will then keep or split the cash loan proceeds with foreign parties who then
     default on the loan. The defendants are awaiting further judicial action and sentencing. The
     investigations are continuing.




Page 44                    Semiannual Report to Congress
                           April 1, 2011 through September 30, 2011
                            Direct Loan Program
         In addition to guaranteeing a loan made by a commercial lender or
         issuing an insurance policy for exports, Ex-Im Bank has the ability to
         act directly as the lender under Ex-Im Bank’s Direct Loan program.
         This program may be vulnerable to fraudulent misrepresentations in
         loan applications or the submission of fraudulent financial statements
          made in an effort to obtain a loan.




Successful investigative efforts within the Direct Loan program during the reporting period
include the following:


Effective Collaboration Helps Stop $10 Million Fraud in Progress Against
Ex-Im Bank

OI Special Agents, Ex-Im Bank staff, and international law enforcement partners collaborated
to stop a $10 million, direct loan fraud in progress against Ex-Im Bank.

The fraud was uncovered when Ex-Im Bank staff reviewed the financial statements submitted
as part of a $10 million, direct loan application by the prospective borrower, an England-
based telecommunications services company. Ex-Im Bank staff questioned the authenticity
of financial statements and referred the matter to the OIG. The OIG investigation found
that an international broker, acting on the borrower’s behalf, submitted the loan application
to Ex-Im Bank and included financial statements that appeared to have been prepared by an
internationally-recognized accounting firm. OI Special Agents coordinated with Corporate
Security of the accounting firm in question and law enforcement authorities in Great Britain
and determined the financial statements were false. The investigation revealed that the
purported borrower was actually a Ukrainian entity operating out of a business-front in
Great Britain. OI Special Agents confronted the perpetrators about the fraud leading to the
withdrawal of the application.




                               Office of Inspector General                              Page 45
                 Export - Import Bank of the United States
Other Investigative Results



       Special Agents Work Collaboratively with Ex-Im
       Bank to Help Protect Funds at Risk
       To the extent permissible and within the confines and limitations of an investigation, Special
       Agents work collaboratively to share investigative intelligence with Ex-Im Bank Office of
       General Counsel, Credit and Risk Management Division, and Asset Management Division to
       help identify potential and suspected fraudulent activity within Ex-Im Bank transactions and
       to protect taxpayer funds at risk.

       During this reporting period, the OIG communicated with Ex-Im Bank management to
       enhance the monitoring of several existing transactions and due diligence reviews of proposed
       transactions based on developed investigative leads. We shared active law enforcement
       intelligence with Ex-Im Bank on several different matters concerning suspected criminal
       activity by participants involved in active policies or transactions under review. In four
       separate matters, investigative efforts and OIG coordination with DOJ and Ex-Im Bank
       helped to facilitate the direct repayment and collection of outstanding debt by responsible
       parties in amounts totaling $2,333,459.

       In other investigations, agents provided Ex-Im Bank management with active law enforcement
       intelligence concerning the roles and responsibilities of certain parties engaged in fraudulent
       activity involving Ex-Im Bank insurance policies. As a result, Ex-Im Bank canceled several
       insurance policies, Special Buyer Credit Limits, Discretionary Credit Limits, or Enhanced
       Assignment Authority protecting approximately $1.7 million of funds at risk.

       In another matter, agents shared investigative intelligence with Ex-Im Bank, who then denied
       six claims totaling $275,464, due to fraudulent activity by the parties involved.

       In other ongoing matters, OIG investigative results were presented to the Office of General
       Counsel that pursued suspension and debarment efforts against the entities involved in
       two separate investigations. As a result, one party voluntarily excluded themselves from
       participating in Ex-Im Bank transactions and the other party was debarred for 10 years.




 Page 46                    Semiannual Report to Congress
                            April 1, 2011 through September 30, 2011
Additionally, the OIG has made 40 referrals of investigative information to the Ex-Im Bank
Office of General Counsel concerning potential fraud and funds at risk for enhanced due
diligence by Ex-Im Bank during this reporting period.

These efforts are part of the Office of Investigations’ objective to expeditiously protect funds
at risk concurrent with ongoing criminal investigations and to enhance Ex-Im Bank’s existing
capabilities in monitoring, oversight, and civil collection efforts involving transactions in
which fraud is uncovered.



                             Outreach — OIG Continues Efforts to Educate
                                the Export Community on Identifying and
                                      Reporting Fraud, Waste, and Abuse
As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been made
to meet with and educate stakeholders and other law enforcement partners about the various
risks and fraud scenarios most commonly seen in trade finance and export credit fraud cases.
In furtherance of that objective, the OIG attended the Annual Bank of American Fraud
Forum in Charlotte, NC, on June 14-15, 2011. The OIG was a guest speaker at the forum and
presented information on trade finance fraud to conference attendees including members of
the banking community, international law enforcement, and financial crime experts.

Additionally, the OIG and the Federal Maritime Commission’s South Florida Area
Representative met with staff and bank officials of Plus International Bank, Miami, Florida,
on June 3, 2011, in order to discuss common fraud schemes often seen in trade finance and
international ocean shipping. This effort was in furtherance of collaborative efforts between
the OIG, lenders, and other partners involved in the trade finance and export arena.

On May 24-25, 2011, the OIG participated in a Financial Fraud Curriculum review hosted
by the Federal Law Enforcement Training Center (FLETC), Glynco, GA, to discuss and
recommend improvements or additions to several of FLETC’s courses in the Financial Crimes
arena. The review team consisted of nearly 25 different OIG agencies and law enforcement
organizations. The OIG discussed its role in international trade finance fraud and common
scenarios found in these types of cases.




                                Office of Inspector General                               Page 47
                  Export - Import Bank of the United States
          Hotline Activity
          The Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in
          Ex-Im Bank programs and operations. Our investigative team evaluates hotline reports
          and, based on the available evidence, may result in the initiation of an investigation, referral
          to other law enforcement authorities having jurisdiction, or referral to management for
          administrative action.

          The OIG received five hotline reports during the reporting period. All five were referred for
          investigation.

          Hotline reports can be made by:

                 •	   phone at 1-888-OIG-EXIM (1-888-644-3946),
                 •	   email to IGhotline@exim.gov, or
                 •	   mail or delivery service, or in person to:
                         Ex-Im Bank OIG Hotline
                         Office of Inspector General
                         811 Vermont Ave. NW
                         Washington DC 2057

          The OIG will not disclose the identity of a person making a report through the hotline
          without their consent unless the IG determines such disclosure is unavoidable during the
          course of an investigation.




Page 48                       Semiannual Report to Congress
                              April 1, 2011 through September 30, 2011
                             APPE NDICES




              Office of Inspector General   Page 49
Export - Import Bank of the United States
                APPENDIX A — PEER REVIEW REPORTING




This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.




                        Peer Review of the Audit Function
Under generally accepted government auditing standards, OIG audit functions must have
an external peer review at least every 3 years. The National Endowment of the Arts OIG
commenced a peer review of the Ex-Im Bank OIG audit function during this reporting
period and expects to issue the results of the review during the next reporting period.




        Peer Review of the Investigative Function
As of July 2011, Ex-Im Bank OIG derives its law enforcement authority from Section 6(e)
of the IG Act of 1978, as amended. As such, the OIG is required to undergo an external
peer review process of our investigative function every three years. The next peer review is
scheduled for the summer of 2014.




                                     Peer Reviews of other OIGS
The Ex-Im Bank OIG did not conduct a peer review of any other OIG during this
reporting period. It has scheduled a peer review of the audit function of the Consumer
Product Safety Commission OIG for the fall of 2013. In addition, it has scheduled a peer
review of the investigation function of the Office of Personnel Management OIG for the
end of 2012.




                            Office of Inspector General                                   Page 51
              Export - Import Bank of the United States
APPENDIX B — IG ACT PROVISIONS
REQUIRING REPORTING IN SAR




  CITATION                                  REPORTING REQUIREMENTS                                                 PAGE

  Section 4(a)(2)    Review existing and proposed legislation and regulations                                      9 - 11


  Section 5(a)(1)    A description of significant problems, abuses, and deficiencies                               11 - 17

                     Recommendations for corrective action with respect to significant problems, abuses, or        21 - 23
  Section 5(a)(2)
                     deficiencies                                                                                  29 - 31

  Section 5(a)(3)    Prior significant recommendation on which corrective action has not been completed            None


  Section 5(a)(4)    Matters referred to prosecutive authorities                                                     37

  Section 5(a)(5)    A summary of instances in which information was refused                                       None

                     List of audit reports by subject matter, showing the total dollar value of questioned costs
  Section 5(a)(6)                                                                                                  None
                     and recommendations that funds be put to better use

  Section 5(a)(7)    A summary of each particularly significant report                                             19 - 32

                     Statistical tables showing the total number of audit reports and the total dollar value of
  Section 5(a)(8)                                                                                                  None
                     questioned costs

                     Statistical tables showing the total number of audit reports and the dollar value of
  Section 5(a)(9)                                                                                                  None
                     recommendations that funds be put to better use period

                     A summary of each audit report issued before this reporting period for which no
  Section 5(a)(10)                                                                                                 None
                     management decision has been made by the end of the reporting period

                     A description and explanation of the reasons for any significant revised management
  Section 5(a)(11)                                                                                                 None
                     decision made during the reporting period

                     Information concerning any significant management decision with which the Inspector
  Section 5(a)(12)                                                                                                 None
                     General is in disagreement
   Sections 5(a)
   (14), (15), &     Peer Review conducted and outstanding recommendations                                           51
       (16)




Page 52                           Semiannual Report to Congress
                                  April 1, 2011 through September 30, 2011
 Office of Inspector General (OIG) Hotline
Reporting Fraud, Waste, and Abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation
of law, rules, regulations, mismanagement, gross waste of funds, abuse of authority, or a substantial
and specific danger to the public health and safety.

Whether reporting allegations via telephone, mail, or in person, the OIG will not disclose the
identity of persons making a report without their consent unless the IG determines such disclosure
is unavoidable during the course of the investigation.



Reporting Methods
You may submit your complaint or information by any of these methods:

In person:	     Office of Inspector General
		              Export-Import Bank of the United States
		              811 Vermont Avenue, NW
		              Washington, D.C. 20571

By Telephone:	 1- 888-OIG-EXIM (1-888-644-3946)

By Mail:	       Ex-Im Bank OIG Hotline
		              Office of Inspector General
		              Export-Import Bank of the United States
		              811 Vermont Avenue, NW
		              Washington, D.C. 20571

By E-mail:	     IGhotline@exim.gov
811 Vermont Avenue, N.W.
Washington, DC 20571
Telephone 202.565.3908
Facsimile 202.565.3988
